           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    FOLLOW-UP: THE SOCIAL SECURITY
  ADMINISTRATION’S CONTROLS OVER THE
   OLD-AGE, SURVIVORS AND DISABILITY
    INSURANCE OVERPAYMENT WAIVER
          APPROVAL PROCESS

      July 2010    A-13-09-19040




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 1, 2010                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: The Social Security Administration’s Controls over the Old-Age, Survivors
           and Disability Insurance Overpayment Waiver Approval Process (A-13-09-19040)


           OBJECTIVE

           Our objective was to determine whether the Old-Age, Survivors and Disability Insurance
           (OASDI) waiver approval decisions for overpayments exceeding $500 were in
           accordance with the Social Security Administration’s (SSA) policies and procedures.

           BACKGROUND

           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
                                                     1
           under Title II of the Social Security Act. The OASDI program provides protection
           against the loss of earnings due to retirement, disability, or death. Under the program,
           benefit payments are provided to qualified retired and disabled workers and their
           dependents as well as to survivors of insured workers. As of December 2009, SSA
           paid approximately $56 billion in monthly OASDI benefits to about 52 million
           beneficiaries.

           OASDI benefits greater than the amount to which individuals are entitled are
           considered overpayments. SSA’s policies provide various options to collect overpaid
           amounts. In addition, it is the Agency’s responsibility to pursue recovery of the debts. 2
           Beneficiaries can seek relief from repaying overpayments by requesting that SSA waive
           the debts. Generally, SSA policy allows field office personnel to waive recovery of an
           overpayment if (1) the person is without fault, and (2) recovery would either defeat the
           purpose of Title II of the Act, or if recovery would be against equity and good
                       3
           conscience.


           1
               Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               Social Security Act § 204, 42 U.S.C. § 404.
           3
               20 C.F.R. § 404.506 and SSA, POMS, GN 02250.001and GN 02250.150.
Page 2 - The Commissioner


Before October 2008, SSA could administratively waive overpayments under $500. 4
For overpayments exceeding $500, SSA used Form SSA-632-BK to document waiver
                                                             5
requests and Form SSA-635 to document waiver decisions. In addition, SSA policy
requires that waiver approvals for overpayments exceeding $2,000 contain a secondary
peer review and signoff on Form SSA-635. According to the Agency’s policy, if the
amount for which the person is liable is over $2,000 but less than $20,000, the decision
is made by a claims representative or higher position. The secondary review should
also be by a claims representative or higher position. 6 See Appendix B for additional
information on OASDI waiver procedures.

In a February 2006 report, we concluded that SSA did not always comply with its waiver
approval policies and procedures for overpayments exceeding $500. 7 In addition, we
found that waiver approvals for overpayments exceeding $2,000 lacked appropriate
documentation to support the approval decisions. We reported SSA needed to ensure
adherence to its policies and procedures to prevent the improper waiver of OASDI
overpayments. Noncompliance with Agency waiver approval policies and procedures
may result in SSA’s inability to collect OASDI overpayments that should be collected.
SSA agreed with the actions we recommended. See Appendix C for the
recommendations and the status of SSA’s corrective actions.

To perform our current review, we obtained a September 2008 electronic data extract of
7,086 overpayments exceeding $500 (from 1 Social Security number [SSN] segment)
for the period January 1, 2007 through June 30, 2008 that were coded as approved
waivers on SSA’s records. 8 This data extract represented about $33.7 million in OASDI
                9
overpayments. From this data extract, we randomly selected 200 overpayments
totaling about $885,000 for detailed analysis. This included (1) 100 overpayments
ranging from $500.01 to $1,999.99 and (2) 100 overpayments of $2,000 or more.




4
  In October 2008, the Agency increased the limit on administrative discontinuation of overpayment
recovery from $500 to $1,000. Since all waivers included as part of this review were approved before the
policy change, we applied the waiver criteria in effect when the waivers were approved.
5
 Form SSA-632-BK (Request for Waiver of Overpayment Recovery or Change in Repayment Rate or
Change in Repayment Rate) and Form SSA-635 (Waiver Determination).
6
    SSA, POMS, GN 02250.301.
7
  SSA OIG, The Social Security Administration’s Controls over the Old-Age, Survivors and Disability
Insurance Waiver Approval Process (A-13-05-15027), February 2006.
8
 The last 2 digits of the SSN contain digits “00” to “99.” SSNs can be categorized into 20 segments, each
containing 5 sequential groups of these digits. For this audit, we randomly selected SSNs ending with the
digits “40” to “44” which represents 1 SSN segment.
9
    The data extract was obtained from SSA’s records as of September 3, 2008.
Page 3 - The Commissioner


We requested supporting documentation from SSA to determine whether the Agency
documented and approved these 200 sample cases in accordance with SSA’s policies
               10
and procedures. See Appendix D for additional information regarding our scope and
methodology.

RESULTS OF REVIEW
Many OASDI waiver approval decisions for overpayments exceeding $500 were in
accordance with SSA’s policies and procedures. However, we found SSA waived some
overpayments that did not appear to be in accordance with the Agency’s policies and
procedures. Of the 200 sample cases, we were able to review supporting
documentation for 57 waiver approval decisions. Of these 57 decisions, 32 complied
with SSA’s policies and procedures, but 25 did not comply. Specifically, of the
200 sample cases coded as approved waivers, we found

• 16 (8 percent), totaling $78,346, were not in accordance with policies and
  procedures because they did not have Form SSA-632-BK to support the waiver
  request or Form SSA-635 to support the approval decision;
• 9 (5 percent), totaling $59,920, were not in accordance with policies and procedures
  because they did not receive the required secondary peer review and signoff on
  Form SSA-635;
• 36 (18 percent), totaling $216,128, were coded as approved waivers but we were
  unable to determine whether they were in accordance with SSA’s policies and
  procedures;
• 32 (16 percent), totaling $224,903, were in accordance with policies and procedures;
  and
• 107 (53 percent) were not waivers.
                                     11



Table 1 summarizes the 16 waiver approval decisions that did not have appropriate
documentation to support the waiver request or approval decision by overpayment
amounts.

                     Table 1: Summary by Overpayment Amounts
              Overpayment Amount         Number of Cases  Allocation
           $501 to $2,000                       7             44%
           $2,001 to $10,000                    6             38%
           $10,001 to $20,000                   3             18%
           Total                               16            100%


10
  Unless supporting documentation was missing, we did not question the Agency’s decisions regarding
whether individuals were without fault or lacked the financial ability to repay the overpayments.
11
  Although these 107 records included a code in SSA’s systems that indicated they were approved
waivers, they were not, in fact, waivers. These 107 records included 99 cross-program adjustment,
6 bankruptcy, and 2 compromise cases.
Page 4 - The Commissioner


Inadequate Documentation to Support Waiver Requests or Approval Decisions

We found 16 waiver approvals for overpayments totaling $78,346 were waived without
documentation to support the waiver requests or approval decisions. These 16 cases
included 11 that were missing documentation to support the waiver request and 5 that
were missing documentation to support the approval decisions.

For example, in one case, SSA approved a waiver for a $15,229 overpayment. We
researched information available on SSA’s systems and contacted the Agency to obtain
the documentation to support the waiver request and decision. Although SSA provided
documentation to support the approval decision, SSA was unable to provide
documentation to support the waiver request. Although this documentation may have
been provided to the Agency when the waiver was initially requested, SSA no longer
had it available.

According to SSA’s policy, the Agency must determine whether (1) a person is without
fault and (2) recovery would either defeat the purpose of Title II of the Social Security
Act or be against equity and good conscience. 12 Without adequate supporting
documentation, SSA has no assurance these waiver decisions were in accordance with
its policies and procedures. Noncompliance with the Agency’s waiver policies and
procedures weakens the integrity of the waiver process and makes it susceptible to
fraud, waste, and mismanagement.

Waivers Lacked Evidence of Required Secondary Review

We found nine waiver approvals for overpayments $2,000 or greater lacked evidence to
                                                                       13
support that the decisions received the required secondary peer review. Although we
did not determine whether these waivers were appropriate, these nine cases—totaling
$59,920—did not contain the required secondary peer review and signoff on Form
SSA-635. 14

For example, in one case, SSA approved a waiver for a $9,147 overpayment. The
overpayment occurred because SSA did not offset for the beneficiary’s workers
compensation and therefore, benefits continued. According to SSA, the beneficiary
was without fault in causing the overpayment. Although the request was appropriately


12
     20 C.F.R. § 404.506 and SSA, POMS, GN 02250.001and GN 02250.150.
13
  One waiver, totaling about $5,000, lacked the appropriate documentation to support the waiver
request/approval and also lacked the secondary peer review sign-off. It was included as 1 of the
16 waivers that lacked appropriate documentation.
14
   During our 2006 audit, SSA stated that an overpayment’s presence in its Recovery of Overpayments,
Accounting and Reporting (ROAR) system signifies a second review has been completed. Otherwise, the
overpayment would not be present in ROAR. However, the Agency also acknowledged that according to
its policy (SSA, POMS, GN 00250.301), waiver approvals for overpayments greater than $2,000 must
obtain the appropriate secondary peer review on Form SSA-635.
Page 5 - The Commissioner


documented on Form SSA-632-BK, the waiver approval decision documented on Form
SSA-635 did not contain the secondary peer review and signoff required by SSA’s
policy since it was greater than $2,000.

Unable to Determine Whether Waivers Were in Accordance with Policy

We were unable to determine whether an additional 36 waivers, totaling $216,128,
were processed in accordance with SSA’s policies and procedures. For these cases,
we requested documentation from SSA to support the waiver requests and approval
decisions. Although the information may have been available when the waivers were
initially processed, the Agency was not able to provide any supporting documentation
for these 36 cases.

For example, in one case, SSA approved a waiver for a $6,994 overpayment. We
researched information on SSA’s systems and contacted the Agency to obtain
documentation to support the waiver request and decision. In December 2008, Agency
staff stated, “At this point in time, we no longer have any waiver documentation in the
office for this case.” Without documentation to support the waiver request or approval
decision, the Agency has no assurance that staff complied with policies and
procedures.

SSA’s EFFORTS TO IMPROVE THE OVERPAYMENT RECOVERY PROCESS

SSA made efforts to improve staff compliance with OASDI waiver policies and
procedures. For example, in June 2007, SSA issued a Desk Guide for Improving the
Overpayment Recovery Process. This Desk Guide assists SSA staff in making
accurate overpayment decisions as well as improving the overpayment recovery
process for the Title II and XVI programs. 15 Specifically, the Desk Guide provided
detailed instructions for the methods by which an overpayment can be resolved—
including instructions on documenting approved waivers.

CONCLUSION AND RECOMMENDATION
We found many OASDI waiver approval decisions for overpayments exceeding
$500 were in accordance with SSA’s policies and procedures. However, we found that
SSA waived some overpayments in which documentation was not maintained or the
required secondary peer review and sign off did not occur. Without adequate review or
supporting documentation, SSA has no assurance that Agency staff complied with
policies and procedures.



15
  In addition to OASDI benefits under Title II, SSA also administers the Supplemental Security Income
program under Title XVI of the Social Security Act. The Supplemental Security Income program is a
nation-wide, Federal cash assistance program that provides a minimum level of income to financially
needy individuals who are aged, blind or disabled. The Social Security Act § 1601 et seq., 42 U.S.C. §
1381 et seq.
Page 6 - The Commissioner


Therefore, we recommend SSA remind employees of the proper procedures to follow
when processing waivers, including (1) properly documenting all waiver requests and
approval decisions; and (2) obtaining the required secondary peer review and sign-off
for waiver approvals greater than $2,000.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix E for the full text of the
Agency’s comments.




                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Waiver Approval of Amounts Exceeding $500
APPENDIX C – Status of Recommendations from Prior Audit
APPENDIX D – Scope and Methodology
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R    Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
ROAR     Recovery of Overpayments, Accounting and Reporting
SSA      Social Security Administration
SSN      Social Security Number
U.S.C.   United States Code
                                                                                   Appendix B

Waiver Approval of Amounts Exceeding $500
Before October 2008, Agency policy indicated that, before approving a waiver request
for an overpayment amount exceeding $500, the Agency must determine whether (1) a
person is without fault and (2) recovery would either defeat the purpose of Title II of the
Social Security Act or be against equity and good conscience. 1

Without Fault

Without fault is found if the person was blameless in creating the overpayment. An
individual is expected to exercise a high degree of care in preventing an overpayment.
Any individual who demonstrates either a lack of good faith or failure to exercise a high
degree of care in reporting circumstances that may affect entitlement to, or the amount
of, benefits will be found at fault for the overpayment. 2

Defeat the Purpose of Title II of the Social Security Act

“Recovery of an overpayment will defeat the purpose of Title II of the Social Security
Act if recovery would deprive a person of income required for ordinary and necessary
                  3
living expenses.” Also, recovery of an overpayment would defeat the purpose of Title
II of the Social Security Act to the extent the person does not possess any of the
overpaid funds when notified of the overpayment, and the person receives cash public
assistance or needs substantially all current income to meet ordinary and necessary
living expenses and recovery would reduce assets below specific limits. 4




1
 SSA, POMS, GN 02250.001. In October 2008, the Agency increased the limit from $500 to $1,000.
Since all waivers included in this review were approved before the policy change, we applied the waiver
criteria in effect when the waivers were approved.
2
    SSA, POMS, GN 02250.005.
3
    SSA, POMS, GN 02250.100.
4
    Id.


                                                   B-1
Against Equity and Good Conscience

Recovery of an overpayment would be considered against equity and good conscience
if a beneficiary, “…relying on benefit payments or notice that such payments would be
made, relinquished a valuable right or changed his or her position for the worse; or a
contingently liable beneficiary was living in a separate household from the overpaid
                                                                              5
person at the time of the overpayment and did not receive the overpayment.”




5
    SSA, POMS, GN 02250.150.


                                          B-2
                                                                         Appendix C

Status of Recommendations from Prior Audit
In February 2006, we issued a report, The Social Security Administration’s Controls
over the Old-Age, Survivors and Disability Insurance Waiver Approval Process
(A-13-05-15027). The following tables list the recommendations from the prior report,
the Social Security Administration’s (SSA) actual/proposed actions when the report was
issued, and the status as of December 2009.

Recommendation 1 – Alert employees to follow policies and procedures when approving
waivers for Old-Age, Survivors and Disability Insurance (OASDI) overpayments that
exceed $500 regarding decisions of whether beneficiaries are without fault for the
overpayment, and recovery of the overpayment would either defeat the purpose of Title II
of the Social Security Act or be against equity and good conscience.

SSA’s Comments         SSA agreed and stated it would issue a reminder in the form of an
and/or Actions         Administrative Message and would request that the Office of Training
                       present it during one of the transmittal training broadcast sessions no
                       later than March 2006.

Status as of 2009      SSA published Administrative Message (AM-7090) on June 25, 2007,
                       which included a comprehensive overpayment processing guide.
                       This guide had extensive instructions on processing Title II waivers.
                       The Office of Training conducted training on AM-7090 in July 2007.




                                           C-1
Recommendation 2 – Ensure required secondary peer review and sign-off occurs for
waivers of overpayments greater than $2,000.

SSA Comments and/or    SSA generally agreed with this recommendation and stated that only
Actions                the paper documentation lacked a “second signature” review based
                       on the amount of the overpayment. When a waiver approval is input
                       into the Debt Management System, the program looks at the amount
                       of the overpayment. If the debt amount is greater than $2,000, the
                       Debt Management System holds the transaction until the Review
                       Waiver Disposition is completed. Therefore, all the waivers posted to
                       the Recovery of Overpayments, Accounting and Reporting (ROAR)
                       system obtained a “second PIN” signature signifying that the second
                       review had been completed. However, in AM-7090, SSA also
                       reminded the field offices that the secondary reviewer needs to sign
                       the SSA-635 Waiver Determination to ensure proper documentation.

Status as of 2009      SSA, POMS GN 02250.301 was rewritten and re-released in
                       May 2007 to clarify the review requirements for OASDI Waiver
                       Approvals over $2,000. It also included the requirement for
                       management review of waiver approvals over $20,000 and Regional
                       Office review of waiver approvals over $75,000.

                       In addition, most regions issue program circulars giving specific
                       instructions for their region and reminding employees of the review
                       requirements.

                       Furthermore, a reminder to get a second signature on the SSA-635
                       and on all overpayment waiver approvals over $2,000 was included in
                       AM-7090.


Recommendation 3 – Remind employees to properly document all waiver approval
decisions.

Recommendation 4 – Determine whether employee training is needed, and, if so, provide
training necessary to ensure compliance with Agency policies and procedures for
granting OASDI overpayment waivers for amounts exceeding $500.

SSA Comments and/or    SSA agreed with these recommendations and stated it would issue a
Actions                reminder by March 2006.

Status as of 2009      On June 25, 2007, SSA published AM-7090 giving a reminder in the
                       form of an overpayment guide with instructions and guidelines in a
                       clear and easy to read format explaining waiver procedures for Title II
                       and XVI waivers.




                                           C-2
                                                                                  Appendix D

Scope and Methodology
To accomplish our objective, we

•     Reviewed applicable Federal regulations governing overpayment waivers under Title
      II of the Social Security Act.

•     Reviewed prior Office of the Inspector General reports pertaining to Old-Age,
      Survivors and Disability Insurance (OASDI) overpayment waivers.

•     Interviewed Social Security Administration (SSA) staff regarding procedures for
      developing an overpayment decision.

•     Obtained a September 2008 electronic data extract of 7,086 OASDI overpayments
      exceeding $500 (from 1 Social Security number [SSN] segment) for the period
      January 1, 2007 through June 30, 2008 that were coded as approved waivers on
                    1
      SSA’s records. This data extract represented about $33.7 million in OASDI
                    2
      overpayments.

•     Randomly selected 200 overpayments totaling about $885,000 for detailed analysis.
      This included (1) 100 overpayments ranging from $500.01 to $1,999.99, and
      (2) 100 overpayments exceeding $2,000. Specifically, for these 200 cases coded as
      approved waivers, we requested supporting documentation from SSA to determine
      whether it documented and approved these 200 sample cases in accordance with
      the Agency’s policies and procedures. Supporting documentation included case
      files from the Servicing District Office, Claims File Record Management System,
      eView, the Automated Folder Location Web Site, and other possible locations
      referred to us from previous contacted locations. Unless supporting documentation
      was missing, we did not question the Agency’s decisions regarding whether
      individuals were without fault or lacked the financial ability to repay the
      overpayments.




1
 The last 2 digits of the SSN contain digits “00” to “99.” SSNs can be categorized into 20 segments, each
containing 5 sequential groups of these digits. For this audit, we randomly selected SSNs ending with the
digits “40” to “44” which represent 1 SSN segment.
2
    The data extract was obtained from SSA’s records as of September 3, 2008.


                                                   D-1
We conducted fieldwork from October 2008 through December 2009 at SSA’s
Headquarters in Baltimore, Maryland. The entity audited was the Office of Public
Service and Operations Support under the Deputy Commissioner for Operations. We
conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested the data obtained for our audit
and determined it was sufficiently reliable to meet our objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.




                                         D-2
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      June 24, 2010                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-up: The Social Security
           Administration’s Controls over the Old-Age, Survivors and Disability Insurance Overpayment
           Waiver Approval Process" (A-13-09-19040)--INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          E-2
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S
CONTROLS OVER THE OLD-AGE, SURVIVORS AND DISABILITY INSURANCE
OVERPAYMENT WAIVER APPROVAL PROCESS” A-13-09-19040

Below is our response to the report’s recommendation.

Recommendation

Remind employees of the proper procedures to follow when processing waivers, including
(1) properly documenting all waiver requests and approval decisions; and (2) obtaining the
required secondary peer review and sign-off for waiver approvals greater than $2,000.

Response

We agree. As stated in the report, we issued Administrative Message (AM) 07090 in June 2007
in a desk guide format. We included documentation requirements for Titles II and XVI waivers
in the AM, in addition to the requirements for peer review and sign-off of Title II waivers and
management sign off on Title XVI waivers greater than $2,000. Because this AM is currently
archived, by July 30, 2010, we will issue a new AM to remind employees of the proper
procedures. In addition, we retrained employees via interactive video training on June 16, 2010.
The training will be available on Video on Demand from June 21, 2010 through June 2011.




                                               E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Melinda Padeiro, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Tracey Edwards, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-09-19040.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
